NO.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ORISTEL SOTO-PEGUERO,
Petitioner
V.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Title 18, United States Code ยง 3006A (d)(7) and Rule 39
of this Court, Petitioner, Oristel Soto-Peguero, asks leave to file the attached
Petition for Writ of Certiorari to the United States Court of Appeals for the
First Circuit without prepayments of fees or costs and to proceed in forma
pauperis.
Petitioner was represented by counsel appointed pursuant to Title 18,
United States Code ยง3006(a) on appeal to the First Circuit Court of Appeals.

Dated: December 22, 2020
Respectfully submitted,
____/s/ Jane Lee_____
Jane Elizabeth Lee, Esq.
44 Exchange Street
Suite 201
Portland, Maine 04101
Attorney for Petitioner

